<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?
 
                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS

                              FIRST SESSION


                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 MICHAEL HONDA, California          ROBERT B. ADERHOLT, Alabama
 BETTY McCOLLUM, Minnesota          STEVEN C. LaTOURETTE, Ohio
 TIM RYAN, Ohio                     TOM COLE, Oklahoma         
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 CIRO RODRIGUEZ, Texas              

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

          Michael Stephens and Shalanda Young, Staff Assistants

                                ________

                                 PART 3

                   FISCAL YEAR 2010 LEGISLATIVE BRANCH
                       U.S. CAPITOL VISITOR CENTER

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 52-476                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma          
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010


                                           Thursday, July 23, 2009.

        STATUS OF OPERATIONS OF THE U.S. CAPITOL VISITOR CENTER

                               WITNESSES

STEPHEN T. AYERS, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CVC PROJECT EXECUTIVE, ARCHITECT OF THE CAPITOL
TERRIE S. ROUSE, CEO FOR VISITOR SERVICES FOR THE CVC, ARCHITECT OF THE 
    CAPITOL
PHILLIP D. MORSE, SR., CHIEF OF POLICE, U.S. CAPITOL POLICE
TERRELL DORN, DIRECTOR OF PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE

                         Chair Opening Remarks

    Ms. Wasserman Schultz. Good morning. I would like to call 
to order this 14th CVC oversight hearing of the House 
Legislative Branch Appropriations Subcommittee of the Committee 
on Appropriations.
    We are at the point where we would like to occasionally 
have a hearing to just check the box and see how things are 
going and address any concerns that have cropped up since the 
last hearing.
    We have had about 1.6 million visitors to the CVC since it 
opened in December, which is about double the number that 
visited in the same time period last year. About 80 percent of 
the reservations are being made, according to the CVC staff, 
through Member offices, with about 20 percent of those going 
through staff-led tours, which is a little bit bigger than it 
had been when it first started. So staff-led tours appear to 
have increased.
    We are going to address a number of topics this morning, 
but staff-led tours and the continuing evolution of how those 
are handled will be my focus. We want to make sure that we keep 
the CVC staff ever mindful that they are not to interfere with 
the conduct of staff-led tours.
    And then we have some other issues that have arisen related 
to large groups and the nagging issue of how do we transport 
people who are either frail or elderly or both from the west 
front around to the entrance to the CVC.
    The witnesses at today's hearing will be Stephen Ayers, the 
Acting Architect of the Capitol; Terrie Rouse, the CEO for 
visitor services for the CVC; Phillip Morse, the chief of the 
Capitol Police; Terry Dorn, the director of physical 
infrastructure issues at GAO, who hopefully won't have a whole 
lot to say today because we are past the homestretch, we have 
crossed the finish line, and now we are doing our victory lap; 
and Barry Ungar, the CVC project executive.
    We will hear from Stephen Ayers, Chief Morse, and Terrie 
Rouse, and then we will open it up to questions.


                          SPECIAL APPRECIATION


    But before we do that, I do want to take a point of 
personal privilege and thank Dave Marroni for his service to 
the House of Representatives. This will be his last hearing, 
and this is his last week serving the Legislative Branch 
Appropriation Subcommittee.
    He originally came to us as a loaner from GAO, and we were 
able to successfully recruit him away from GAO. But the smart 
public servant that he is, he didn't give up his right to 
return.
    So he preserved his ability to go back to GAO, and since 
his wonderful wife, Moira, is now working on her MBA at Emory 
University in Atlanta, and he has spent quite enough time away 
from her in their brief marriage and wants to join her in 
Atlanta, he will be going back to work for GAO.
    He will be back to be lent to us from them to help us 
finish the conference process, and I just have a feeling that 
he will come back to us one day. And he certainly will, if I 
have anything to do with it.
    But, Dave, thank you so much for your incredible service.
    I really have to tell you that I have never met a person 
with a better steel-trap mind for information and data and who 
got not only up to speed but knew more than some staff--in an 
amazingly quick period of time and has worked here like a 30-
year veteran for the time that I have been the Chair.
    And I appreciate your service.
    Mr. Aderholt.

                 Opening Remarks--Congressman Aderholt

    Mr. Aderholt. Thank you, Madam Chair.
    It is good to be here with our visitors here today. Thank 
you for taking time to be a part of the panel.
    And I want to thank the Madam Chair for her willingness to 
have this status of operations hearing, especially concerning 
the Capitol Visitor Center.
    Since it has been open in the last 8 months, there has 
been, I know, well over a million people, I believe, that have 
gone through the Capitol Visitor Center. It is the new face of 
the Capitol, in the sense that that is the introductory part of 
when people come into the United States Capitol Building, that 
is what they see first.
    And I know that any time you have a new process or a new 
facility, you have to work the bugs out. And that is, I think, 
what has occurred over the last 8 months, and we are working on 
that.
    And I want to thank everyone with the Capitol Visitor 
Center for addressing--especially on the staff-led tours. That 
is certainly going in the right direction, and we thank you for 
your paying attention to that and how we can better serve our 
constituents.
    So, again, thank you for having the hearing, and I look 
forward to the testimony. Thank you.
    Ms. Wasserman Schultz. You are welcome.
    Okay. Mr. Ayers, the floor is yours. Your statement will be 
entered into the record, and you can proceed with a 5-minute 
summary.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Thank you, Madam Chair and Congressman Aderholt 
and members of the subcommittee. I am pleased to be here today 
to provide a status report on the few remaining construction 
activities on the Capitol Visitor Center.
    But, before I do that, Madam Chair, let me also echo your 
comments about Dave Marroni. It has truly been a pleasure to 
work with you, and I do hope that our paths cross again in the 
near future. Thank you, Dave.
    Since the doors to the Capitol Visitor Center were open to 
the public for the first time on December 2nd, we have seen a 
remarkable and overwhelming response to the facility. We have 
recently marked a major milestone, with 1.6 million visitors 
attracted to the CVC.
    Not only are we accommodating this record number of 
visitors, but our facility operations and management team is 
doing an outstanding job maintaining the Capitol Visitor 
Center; keeping it clean, well-stocked, and functioning at top 
efficiency.
    Ms. Rouse will discuss the CVC operations in further detail 
in her testimony, but I would like to take a moment to thank 
this subcommittee, the Chair and the ranking member in 
particular, for your continued leadership and guidance in 
support of the Capitol Visitor Center and the Architect's 
Office in general.


                         CONSTRUCTION PROGRESS


    I am pleased to report that all basic construction work is 
essentially complete. We are finishing with a few specific 
items and anticipate that most of our work will be done by the 
end of September. This includes the ongoing paver repair work, 
landscaping, reinstalling the historic trolley stop on the 
Senate side of the Capitol Building, and completing the final 
phase of the fire alarm and security system acceptance testing.
    To better accommodate and assist Members and guests in 
navigating around the Capitol Visitor Center, we are preparing 
to install interior and exterior way-finding signage, as well.


                   PUNCH LIST ITEMS AND CHANGE ORDERS


    Madam Chair, you recall that our punch list started at 
nearly 16,000 items a few months ago, and today we have less 
than 245 items remaining on that punch list. We continue to 
work closely with the Office of Compliance, the United States 
Capitol Police, and our Fire Marshal on those specialty items 
that remain open.
    At this time, there are 92 open change orders that we are 
working on, and we expect to have very few new potential change 
orders being submitted as our activities are clearly wrapping 
up in the next few months.
    Most importantly, we are confident we have sufficient funds 
on hand to meet all of our remaining obligations on this 
project.
    Madam Chair, I would like to conclude my testimony by 
noting that the CVC has continued to be recognized with several 
awards for the professional workmanship involved in its 
construction. This spring, our team responsible for relocating 
the model of the Statue of Freedom from the Russell Building to 
Emancipation Hall was recognized by the Washington Building 
Congress in its specialty painting category, an award we are 
particularly proud of.
    As always, we appreciate the continued support of this 
subcommittee and will continue to provide exceptional service 
to the Congress and the visiting public.
    And this concludes my statement, and I am happy to answer 
any questions you may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2476A.001
    
    [GRAPHIC] [TIFF OMITTED] T2476A.002
    
    [GRAPHIC] [TIFF OMITTED] T2476A.003
    
    Ms. Wasserman Schultz. Thank you, Mr. Ayers.
    Ms. Rouse.
    Without objection, all of the statements will be entered 
into the record.

                    Opening Statement--Terrie Rouse

    Ms. Rouse. Good morning.
    Madam Chair, Congressman Aderholt, members of the 
subcommittee, thank you for the opportunity testify.
    I also want to thank you for your support and guidance 
during this exciting period in the history of the Capitol 
Visitor Center. Much of the success of the Visitor Center is a 
result of the guidance we have received from you and your 
staff, and we personally thank Dave Marroni for his guidance.

                         CVC VISITOR MILESTONE

    Since opening the Visitor Center, we have welcomed 1.6 
million visitors to the U.S. Capitol. We have already surpassed 
the number of visitors who came to the Capitol during 2008, and 
we will likely double that number.
    Despite this dramatic increase in visitation, we have had 
an equally dramatic decrease in the average time visitors wait 
to enter the Capitol. Today, through our expanded screening 
zone and the tireless efforts of the Capitol Police, visitors 
may enter the Capitol Visitor Center through the front doors 
for an average wait of just 6 minutes. As you know, prior to 
the opening of the Capitol Visitor Center, visitors to the 
Capitol were often told as early as 10:00 a.m. that all tour 
passes had been distributed. Perhaps the greatest success story 
we can tell today is that, since its opening, no constituent, 
no visitor, no family has been turned away by the Capitol 
Visitor Center.

                             CVC OPERATIONS

    While there has been a few bumps in the road, the 
efficiency of operation is a testament to the guidance of this 
committee and our authorizers and to the dedication and 
responsiveness of my team. Responsiveness is critical, as we 
demonstrated last spring when tours were booked solid weeks in 
advance. As the season approached, we began receiving close to 
400 calls a day from Members' offices seeking to reserve staff-
led or guide-led tours for constituents, many of whom were 
arriving at Members' offices at the last minute.
    We knew that we needed to immediately review, in 
consultation with this committee and other authorizing 
committees, some of the procedures that had been established 
prior to the opening of the Capitol Visitor Center. And here 
are some of the adjustments we made.
    First, we established a separate line at our information 
desk in Emancipation Hall for handling congressional staff 
requests. We assigned staff to serve as congressional 
ambassadors on the floor of the Emancipation Hall to facilitate 
staff tours and other Member tour requests. Additionally, we 
added two tour slots weekday mornings and two slots in the 
afternoon specifically to accommodate tour requests from 
Members' offices. We tripled our phone staff.
    With these and other measures in place, every staff-led 
tour request was accommodated. During a 2-week period at the 
height of the spring season, congressional staff led 
approximately 11,000 people on tours.

                              CVC SHUTTLES

    To facilitate access to the Capitol, we are replacing older 
shuttle vehicles with more modern units customized to 
accommodate persons with disabilities. While fewer than one-
half of 1 percent of our visitors use our shuttles, the new 
expanded fleet will enhance our ability to transport visitors 
from the bus drop-off location in the southwest corner of 
Capitol Square to the Visitor Center.
    As we continue to refine our operations, we have made 
adjustments on the administrative front. In response to 
requests from the Members of Congress, we have increased the 
number of Congressional Historical Interpretive Training 
program sessions, otherwise known as CHIP. We are developing an 
online version of the training component. So far, close to 
4,000 congressional staff have completed the training.
    In order to continue to be responsive to Members' office 
concerns, we have instituted monthly listening sessions for 
congressional staff, where they may raise questions and 
concerns about any aspect of our operation.
    Our two gift shops and restaurants are enjoying robust 
sales, comparable to other venues in the District. The 
Congressional Auditorium and other congressional event spaces 
are being well used by Members of Congress. As of July, 900 
events had been booked by Members in these spaces.
    Finally, we are piloting a variety of educational programs, 
including a series of events and lectures for Constitution Week 
in September.

                           MEMBER RECOGNITION

    I am proud to be able to testify to the success of the 
Capitol Visitor Center. I am especially proud of the many 
thank-you notes we have received from Members' offices. Here is 
what one staffer working for a Member from Arkansas wrote: 
``Just wanted to thank you for an excellent job. Lately, we 
have been calling for the last-minute constituents that want to 
visit the Capitol in July, and we were able to accommodate 
them.'' And from the Senator in Maryland: ``Thank you for 
providing an excellent experience for my constituents.''
    Madam Chair, this concludes my statement, and I will be 
happy to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2476A.004
    
    [GRAPHIC] [TIFF OMITTED] T2476A.005
    
    [GRAPHIC] [TIFF OMITTED] T2476A.006
    
    [GRAPHIC] [TIFF OMITTED] T2476A.007
    
    [GRAPHIC] [TIFF OMITTED] T2476A.008
    
    [GRAPHIC] [TIFF OMITTED] T2476A.009
    
    [GRAPHIC] [TIFF OMITTED] T2476A.010
    
    Ms. Wasserman Schultz. Thank you.
    Chief Morse.

                     Opening Statement--Chief Morse

    Chief Morse. Good morning, Madam Chair and members of the 
committee, Mr. Aderholt. Thank you for the opportunity to be 
here today to discuss Capitol Police's role in securing the 
CVC.
    I would like to start by thanking the committee for its 
leadership in this process. I would also like to thank the 
Architect of the Capitol and his staff for their partnership in 
developing and implementing an overall program for operation of 
the Capitol Visitor Center that I believe balances security of 
the complex with the desire for visitor accessibility.
    Together, we have processed more than 1.6 million visitors 
into the U.S. Capitol and the Capitol Visitor Center since it 
opened in a very safe and controlled and monitored environment. 
We have made every effort to move visitors into the facility in 
an expeditious manner while maintaining the highest level of 
security. Overall, we believe the security operations at the 
Capitol Visitor Center and the Capitol are working well.

                      CAPITOL DIVISION REALIGNMENT

    In order to better focus our sworn resources, we recently 
realigned the Capitol division to provide greater flexibility 
for moving assets to meet the influxes of traffic into the 
various entrances for the Capitol and the Capitol Visitor 
Center.
    Likewise, we are continuing to work with our stakeholders 
to find ways to efficiently screen Members, staff, visitors, 
and staff-led tours through the tunnels into the Capitol and 
the CVC.

                            AOC PARTNERSHIP

    In addition, we are continuing to work with the Architect's 
Office to monitor the established transportation plan in order 
to balance the access of mobility-challenged visitors with the 
security needs of the complex.
    Before I close, I would like to thank all of the men and 
women of the United States Capitol Police for their work every 
day to maintain the security of the Capitol complex in order to 
protect our legislative process. I am extremely proud of each 
one of them.
    Again, I would like to thank the members of the committee 
for inviting me here to testify before you today. And I would 
be happy to answer any questions that you have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2476A.011
    
    [GRAPHIC] [TIFF OMITTED] T2476A.012
    
    [GRAPHIC] [TIFF OMITTED] T2476A.013
    
    [GRAPHIC] [TIFF OMITTED] T2476A.014
    
    [GRAPHIC] [TIFF OMITTED] T2476A.015
    
    Ms. Wasserman Schultz. Thank you very much. Terry.

                    Opening Statement--Terrell Dorn

    Mr. Dorn. Thank you, Madam Chair, Mr. Aderholt, and members 
of the subcommittee.
    As predicted at the last subcommittee hearing, the CVC did 
open on December 2nd. Since then, AOC has continued to work on 
remaining punch list items and has reduced their number from 
about 3,000 at the time of the last hearing to about 300 today. 
They have also reduced the number of open change orders to 
about 100.
    I expect most of these items to be corrected by the end of 
September, with only a few items, such as way-finding signage 
and some work in the Senate Curator space, to be complete by 
the end of September.
    While the remaining work is important to having a complete 
and usable facility, operations have not been materially 
affected. The current estimate remains at 621, and we are also 
confident, as the AOC is, that the project should complete it 
under that price.
    And, also, I would just like to say that we are thrilled 
that you are loaning Dave Marroni back to us, and we hope we 
can keep him for a little while.
    Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2476A.016
    
    [GRAPHIC] [TIFF OMITTED] T2476A.017
    
    [GRAPHIC] [TIFF OMITTED] T2476A.018
    
    [GRAPHIC] [TIFF OMITTED] T2476A.019
    
    [GRAPHIC] [TIFF OMITTED] T2476A.020
    
    [GRAPHIC] [TIFF OMITTED] T2476A.021
    
                            STAFF-LED TOURS

    Ms. Wasserman Schultz. Thank you all very much.
    I want to start off with the staff-led tours. Since the 
meeting that we had a couple of months ago in my office with 
Mr. Aderholt and Mr. Brady and Mr. Lungren, there have been a 
number of improvements made to staff-led tours and the 
complaints have dropped. I don't get as many Members stopping 
me in the Chamber and griping about how they have been 
restricted.
    But that having been said, we did make sure that we put 
language in the fiscal year 2010 appropriations bill to ensure 
that you are prohibited from restricting the staff-led tours 
except for security reasons.
    Can you describe for us whether and in what way, you are 
currently restricting staff-led tours? And have you made it 
clear to your staff, particularly the guides, that it is only 
the Capitol Police, not the CVC guides, that are responsible 
for making sure that staff-led tours follow security 
restrictions?
    Ms. Rouse. I can safely say that we are not restricting 
staff-led tours. We make it very clear to our guides and our 
Visitor Assistants, anybody who is hosting members of the 
public, that we are not restricting them.
    We do have our listening sessions, so we can give 
feedback----
    Ms. Wasserman Schultz. How often do you have those?
    Ms. Rouse. We have had them about every month or so since 
the spring. And we take constant telephone calls from folks, 
and I think it has greatly improved.

                         MEMORANDUM DIRECTIVES

    Ms. Wasserman Schultz. I have seen memos from you to Member 
offices on tour operations that are pretty directive. And, I 
mean, the way you word those memos don't appear to be 
recommended guidelines; they appear to be mandates.
    For example, the current restriction that tours are to go 
in a clockwise motion around the Capitol, but, that is not 
applicable to staff-led tours. If they want to go 
counterclockwise, diagonal, or up to one floor and down to 
another, that is perfectly acceptable.
    But your memos appear to be far more directive, and that is 
the feedback I am getting from Members and staff, that they 
have been told to turn around and go the other way. So perhaps 
you could make your memos less directive or more specific, as 
it relates to staff-led tours.
    And then with the old Supreme Court, I know it is open 
every day, but it is not officially on the non-staff-led tour. 
But are you still making sure that the staff that give tours 
understand during the training that they can bring our 
constituents into the old Supreme Court?
    Ms. Rouse. Staff-led tours can take their tours anywhere 
they want to go. And the two chambers, the old Senate chamber 
and the Old Supreme Court are places that people often go. 
There is usually someone there. The routing through the the old 
Senate Chamber for the regular tours is something that we look 
at every day, depending upon the number of reservations we 
have, because it is sort of a gently used building.

                       STAFF-LED TOUR FLEXIBILITY

    Ms. Wasserman Schultz. Yeah, you have to be careful in 
there. But in the CHIP training, it is made clear to staff that 
on a staff-led tour they do have the flexibility to go where 
they want and in the direction that they want?
    Ms. Rouse. It should be the case, and I will make sure that 
is the case going forward.
    Ms. Wasserman Schultz. That would be great. I did listen to 
you describe some of the things that you have been doing to 
improve staff-led tours.
    I want to move to shuttle buses, and then my time will 
expire.
    We have received communication from the tour bus companies, 
as well as from the Guild of Professional Tour Guides, that are 
very concerned about the difficulty that frail and elderly 
visitors are having getting up the hill from the west front.
    And I know we have the six shuttles that are available. And 
I also know that they can be made available in advance, with 
advance notice, if they have a particularly large group. And 
basically all six can take 30 people at a time, but 30 people 
at a time, if you have 90 people, then you have 60 people who 
are waiting 20 or 30 minutes for you all to do the loop and 
come back to get them. So that is a concern.
    One of the main things I wanted to ask you is, has it been 
explored or would it make any sense to buy one of those 
minibuses like they use at the Kennedy Center so that we 
could----
    Ms. Rouse. Oh, go back and forth?
    Ms. Wasserman Schultz. Yes. I mean, we wouldn't use it 
every day, but we would use it for a large group.
    And, Chief Morse, I mean, if we did that, is that something 
that could be screened? I mean, it is our bus, so----
    Chief Morse. Absolutely.
    Ms. Wasserman Schultz [continuing]. We probably wouldn't 
need to screen it.

                   PHYSICALLY CHALLENGED CONSTITUENTS

    Representing a constituency in south Florida that has a 
disproportionate number of frail elderly, that is a hill that 
for a healthy person is, a pretty good bit of exercise. For 
someone frail, it is extremely difficult.
    And I know that you have urged the tour companies to 
communicate with you in advance, and I absolutely think they 
need to do that. But if you have a big busload of seniors, a 
good chunk of them are going to be frail. And I just don't know 
that those shuttles are an ongoing viable option.
    So can you share both of your thoughts about that?
    Ms. Rouse. Well, on the minibus?
    Ms. Wasserman Schultz. Uh-huh.
    Ms. Rouse. You know, I think we can, of course, look into 
any scenario. It would be the privilege of the chief of police 
on what would be appropriate.
    We have so far been able to accommodate people who are 
coming in on that end when they give us enough notice. And even 
when they don't have notice, we can always call for additional 
support.
    So, thus far, we have been able to accommodate, but I think 
it could be worthwhile at least exploring the idea of something 
else that could be used.

                             COMMUNICATION

    Ms. Wasserman Schultz. I am just a little concerned because 
the communication that I have gotten from the companies is that 
there is not a regular enough communication with them about you 
needing to know in advance. I mean, is it on the Web site when 
you book a tour?
    Ms. Rouse. It is on our Web site.
    Ms. Wasserman Schultz. Is it in a prominent place?
    Ms. Rouse. Yes, it is where it is, but it is in a prominent 
place. When they call us in the call center, we do tell them. 
We also, in a couple of cases with the tour companies who we 
work with quite a bit, have had things in their newsletter.
    So we made a pretty strong appeal with the guides, tour 
companies, who also stopped by to see me a day or 2 ago. We 
have made an effort with them. However, we can make an 
additional effort.
    What we did do last year with some of the tour companies, 
we had them come in and walked them through the whole process. 
And that made them feel better. So we could----
    Ms. Wasserman Schultz. If you did that on a regular basis, 
that would be----
    Ms. Rouse. Yes, we can do that. Not a problem.
    Ms. Wasserman Schultz. I also think it is absolutely 
incumbent upon them--and the tour guides and the associations 
are here today, and the bus companies might be here, as well. 
It is a two-way street, and it is incumbent upon them to know 
this process and know the guidelines, and they need to make 
sure that they let you know in advance and prepare you.
    We are never going to have a perfect system, because 
dropping off at the west front for someone frail is going to be 
inconvenient and a little more difficult than the ideal 
situation in front of the east front would be.
    Okay, my time has expired. Thank you.
    [Clerk's note: Correspondence referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2476A.022
    
    [GRAPHIC] [TIFF OMITTED] T2476A.023
    
    Mr. Aderholt.
    Mr. Aderholt. Thank you.

                           SENIOR TOUR GROUPS

    Well, again, let me just take over as far as, also, about 
the concerns for senior groups. And thank you for your paying 
attention to this issue, because we are hearing things from the 
senior groups. And, you know, certainly that is an obstacle, to 
get up the hill. And, therefore, trying to find a way to better 
facilitate visitors in any way, we know that that is what you 
want to do and what we want to do and help to facilitate that. 
So we thank you for paying attention to that and just encourage 
you to continue to do what you can to make sure that that 
message gets out to the tour groups, especially that cater to 
senior groups.
    One thing that I wanted to address to Mr. Ayers is the 
issue about the signage in the CVC. And one of the concerns 
after the CVC was opened was the lack of interior and exterior 
signage.

                         SIGNAGE IMPLEMENTATION

    And I just wanted to check what the status of the 
implementation of the signage is and what needs to be done to 
improve that and what feedback you are getting from other 
people that are in the CVC on a daily basis.
    Mr. Ayers. We have certainly gotten feedback that it is 
difficult to navigate, difficult to find where you are. We have 
gotten that feedback from Members, staff, our own employees and 
guides, as well as the Capitol Police officers that staff that 
on a daily basis.
    We have implemented a temporary signage program, and we 
have gone in and put room numbers and ``you are here'' signs 
and directional signs throughout the facility as an interim 
measure until the permanent signs are fabricated and installed. 
We think that will be several months from now before they are 
actually installed, so that is why we went ahead with a 
temporary measure on the inside.
    On the outside, we are also looking at temporary signage, 
as well. Just last week, I saw the design for that. I would 
suspect within the next two to four weeks that exterior signage 
will be in place to help people navigate around Capitol Square 
to get to the appropriate entrance of the building.
    Mr. Aderholt. Okay, very good.

                           CVC UTILITY COSTS

    Concerning the utility costs for running the CVC, are they 
running higher than you expected, lower, pretty much what was 
expected for the overall utility cost of running the CVC? Can 
you give us a little status report on that?
    Mr. Ayers. I can give you that for the record. I don't have 
that information with me. But I would be happy to give you an 
update on electrical, steam and chilled water and domestic 
water.
    Mr. Aderholt. Okay. All right. That would be very good.
    That is all I have, Madam Chair.
    Ms. Wasserman Schultz. Okay, great.
    [The information follows:]

                   Utility Costs Estimates for Record

    Question. What have the Capitol Visitor Center (CVC) utility costs 
been since opening, and how do they compare with utility projections?
    Response. In late Fiscal Year 2008 and early Fiscal Year 2009, the 
Architect of the Capitol (AOC) installed meters to measure specific 
utility usage for various buildings, including the CVC as part of the 
U.S. Capitol Building. In order to accurately measure utility usage, 
these meters had to be calibrated and brought on line; thus, the AOC 
has partial data for the CVC starting in March 2009. Since this time, 
the average cost for electricity has been $100,000 per month. The 
average cost for chilled water has been $90,000 per month. The average 
cost for water has been $14,000 per month, including sewer and 
impervious surface charges. The AOC estimates utility costs based on 
rates and historical data regarding the number of cooling and heating 
days; however, on an annual basis, dependant upon the weather, the 
actual data is acquired throughout full-time CVC operations, the AOC 
will continue to monitor this ensure accurate budget estimates.

    Mr. Rodriguez.
    Mr. Rodriguez. Let me just thank you for being here and 
thank you for the work you are doing.
    And they had the same kind of questions I had, in terms the 
signage, because I hear a lot of the tourists come by and ask 
the policemen where to go. So I think hopefully--the tourists, 
I guess, a year from now, I guess, will be still asking the 
same questions, so as many signs and guidance as you can 
provide would be helpful.
    Mr. Ayers. We do believe it is really important that we put 
in a system that enables police officers to do police and 
security work versus way-finding on a continual basis. And we 
have heard that loud and clear from the officers that work 
outside the Capitol Building. And we are working to address 
that with new exterior signage.
    Mr. Rodriguez. Thank you.
    Ms. Wasserman Schultz. Mr. Cole is not here.
    Mr. Honda. Oh, I am sorry.
    Mr. LaTourette.

                           CHAIR TRENDSETTER

    Mr. LaTourette. That is okay, Madam Chairman. I was going 
to compliment you on continuing to be a trendsetter. Your 
footwear is some of the finest I have seen on the Hill in a 
very long time.
    Ms. Wasserman Schultz. Thank you very much. Yeah, I like to 
blend into the background.
    Mr. LaTourette. In Ohio, we call those ``nice kicks.''
    I want to just echo the signage thing. And it is not just 
the visitors. We had two Republican conferences in some room 
over there, and we were all wondering around for a very long 
time, and we couldn't figure out where we were going. So 
anything you can do----
    Mr. Rodriguez. I have the same problem with Rayburn, too.
    Mr. LaTourette. Well, anything you can do to help not only 
the visitors but the Members, sort of, find their way would be 
greatly appreciated.
    And I was sort of marvelling at the frail people that 
apparently live in Florida and Alabama. And one place you don't 
want to be in Ohio is when a group of blue-haired ladies get 
off a bus going into a casino. They just come charging through. 
So I guess we are hardier stock up in my part of the world.

                       COORDINATION CONFIRMATION

    I do want to ask about coordination. And I don't like 
asking questions by anecdote, but I got one, and I think it 
illustrates the point. And that is the coordination between 
your forces, Chief, and Ms. Rouse.
    And it was on art competition day. And art competition day 
is a big day. And there were two lines, apparently, to get into 
the tunnel, one for the tours and then one for the artists and 
their families.
    In our specific case, we apparently broke a rule, and we 
had an artist and family and then we had a couple of people 
that just wanted to see the Capitol. And we asked the red coats 
which line to get in, and the red coats said, ``It doesn't 
matter, either one.'' And I thought that was a good answer. But 
when they got up to security, the security at the magnetometer 
said, ``Oh, no, the artist and his family can go down and look 
at the picture and leave, but the other people have to go back 
into another line.'' And that is okay, but because of the 
length of the line it was like half an hour. I mean, so you got 
half an hour here, half an hour there. We cheated; we took the 
artist and the family into the tunnel and into the Capitol 
Visitor Center anyway, and nobody caught us.
    But it raises some concern, just in terms of--can you just, 
sort of, discuss for the subcommittee how you all are talking 
to each other to make sure that the red coat answer is the same 
as the checkpoint answer?
    Chief Morse. Well--I can say--I don't know the total 
number, but Ms. Rouse gave it to me the other day when we were 
down in the CVC. There had been some 800 types of events that 
had taken place related to the CVC. She had conveyed that, you 
know, to our division that handles the CVC, and they were 
handled very well. So the communication between her office and 
the division office I think goes very well.
    Instances like that, yes, poor communication. But, 
certainly, we can, you know, prioritize or facilitate any 
special needs of the Members related to any special events and, 
at the same time, still expeditiously move people into the CVC 
from the main entrance to the Cannon tunnel.
    So we will improve upon that and that communication, 
especially since the Cannon tunnel is handled by our House 
division and the Capitol division is primarily responsible for 
the CVC and all. We will improve upon that communication with 
Ms. Rouse.
    But we do work very well together in that respect.
    Mr. LaTourette. Ms. Rouse.

                          PARTNERSHIP MEETINGS

    Ms. Rouse. Yes, actually, we do work very well. We have a 
weekly partners meeting with everyone who has anything to do 
with the CVC down to the Attending Physician's office. It is a 
great debriefing hour where everything can be said and we work 
through the issues. Of course, every time something new 
happens, then we debrief on that.
    So that communication, I think, has led a lot to what often 
is a very smooth operation. And when there are hiccups, we 
acknowledge them. We don't brush them under the table; we go 
right after them.
    Mr. LaTourette. Thank you very much.
    And I just want to commend all of you, because my notes 
indicate that the average wait time is down from 2 to 4 hours 
to 6 minutes, which is really--I mean, that is really 
outstanding, with all of the demands and security and people 
you have to see.
    The only thing I have left is I have been racking my brain 
since you asked questions to determine whether I lead my tours 
clockwise or counterclockwise, and I can't figure it out. But 
thank you very much.
    Ms. Wasserman Schultz. Thank you, Mr. LaTourette.
    Mr. Honda.

                  VISITOR LINES AND WEATHER CONDITIONS

    Mr. Honda. Thank you very much.
    And let me add my thanks to Mr. Marroni. I knew that name 
sounded familiar, and I remember it was a song. Do you remember 
that, ``I got a girl named Boney Maroney''? That shows you how 
old I am, I guess.
    And to our staff, also, thank you very much.
    And it just happens my question has to do with lines, also. 
And when I enter the Capitol Visitor Center, sometimes it is a 
very hot and humid day; others--I am anticipating the cold 
winters.
    How are we going to be shortening that line so that we can, 
one, make sure that if it is a long line that the seniors and 
the older folks, those who need to be sheltered from the 
humidity and the cold, are accommodated as quickly as possible?
    The lines are out there--and I know that you had some fans 
out there that help, but it doesn't reach all the time down to 
the end of the line. And I am not sure how long the wait time 
is, but it seems to me that there might be other mechanisms 
like those little spray hoses where it reduces the temperature 
and cools people off. But, still, a lot of folks are older, and 
standing around really saps their strength. I am getting to 
that age, too, so, you know, I would like to know if there are 
any thoughts being put into that, in terms of prior to entering 
the building.
    Chief Morse. Well,--I will begin by answering that.

                           VISITOR SCREENING

    One thing that I do is I go work the lines on occasion. I 
go over to the CVC, and I have spent several weeks over there 
actually helping screening, seeing how screening is done, going 
outside.
    What I have noticed--and it isn't a policy or a procedure 
or anything of that sort, it is just human nature, especially 
with our officers who know that these types of things are 
occurring, we work very closely with the Visitor Services, who 
stand out there with us. And, frankly, anytime we see anyone 
who needs special care or can't stand or sit, we simply 
expedite them into the facility. And we hope and explain to 
everybody who is still waiting that, you know, this is 
something good for people and this is what we are going to do. 
And I have never seen an issue or problem with it.
    As far as anything that we could do with regard to making 
the environment in that area better when it is hot or cold, we 
could certainly get together and look at that, whether it be 
fans or heaters or mist or water or whatever.
    But our officers know that, when there are people in need 
and that things aren't working out very well for them in the 
environment that they are standing, they expedite them into the 
building.

                       VISITOR SERVICES DIVISION

    Ms. Rouse. To follow up on what the Chief was saying, the 
Visitor Assistants are out there. What we have done, thanks to 
our Visitor Services division, is we have more people out there 
at the lines who can identify and help direct way-find. Then 
they are able to identify someone who is in need.
    We have umbrellas that we are now going to have out there 
that allow us to address the need for not only rain, but if 
someone can't deal with the heat. Like you, I don't like the 
heat, at this point in my life.
    So we are trying to accommodate, and we are trying to learn 
from our colleagues around the country, what are they doing 
with the crowds that they have, in the environments that they 
have? And then we will take those best practices, run them 
through our partners, and see what would make sense, so, as we 
approach the season next year, we have better solutions.

                         VISITOR ACCOMMODATIONS

    Mr. Honda. To the Chair, I know that when 9/11 first 
happened and we closed down our airports and then the onslaught 
of long lines started to come up, they have contracted with 
Disneyland, because some of the folks there are used to looking 
at how to configure lines and control lines and bring people 
through expeditiously.
    But it seems to me that there would be issues around 
communication. If you are having busloads, you know who is 
going to be there; that could be accommodated. But those who 
just arrive through different tours, it seems to me there 
should be some sort of a protocol that is followed rather than 
just leaving it up to individual officers and persons to check 
the lines and see if something is going on. It should be a 
matter of course that we check that line and see if we can help 
people get through.
    And I think that will go a long ways, in terms of their 
affection for what is happening while they are visiting here at 
the center. So if we could just pay a little bit more attention 
to that and see what we could do. I think our goal is to be the 
Nordstrom of the world, be centered around our clients.
    Ms. Rouse. Congressman, we can certainly come up with a 
protocol to address that need.
    Ms. Wasserman Schultz. Thank you.
    Mr. Ruppersberger.

                          RESTROOM FACILITIES

    Mr. Ruppersberger. The first thing, I think you ought to be 
congratulated. You all have come a long way since we first 
started with this issue. There are always things to work out, 
and that is what we are doing right now.
    I have two issues I want to raise. But following up on 
Mike's question, when people come here, sometimes they come 
from train stations or whatever, and they are in long lines. Do 
we have bathroom facilities outside that they can use right 
away?
    I mean, it is something we might want to consider, if 
people are going to be in a line, they are coming from a train 
station or whatever, they have young kids. I don't know how we 
deal with it, whether you want to consider Spot-a-Pots or 
whatever. But it is just an issue I thought of. So I will get 
off of that. Just think of that issue.
    Mr. Honda. I was told that, when you pass 50, you don't 
pass a bathroom.
    Mr. Ruppersberger. You know, that song that you talked 
about, I think that song was in the 1930s. So that shows your 
age.

                              TOUR GUIDES

    The two issues I would like to talk about--this is one that 
I think has to be dealt with. I am telling you experiences, 
feedback from me. And some of the feedback--these are people 
that have come to the Visitor Center. I have a sister who has 
two children, 10 and 7, and I have a chief of staff who has 10-
year-old twins. And both had not a very good experience with 
the tour guides.
    And I want to try to address the issue of tour guides. 
Because we spent all this money, we want to make this an 
extremely positive experience for families all over the 
country, people from other countries, whatever. And we can do 
all of the things that we talked about, but if we don't have a 
positive tour guide situation, it can really make it not very 
positive, I guess.
    And this is what my suggestion is. I am not sure what the 
hiring standards are. I am not sure what the training is. And 
it has to really--you need management, I think, to look at the 
people doing the training to see where we are. But I have an 
idea, because I have had two complaints now--three, really, but 
two people that I am rather close to about how the guides are 
totally condescending, especially to young children.
    A lot of people want to ask a lot of questions. And I don't 
know if we are giving our guides a time period to run them 
through or whatever it is. And then my sister happened to go to 
the White House and had a totally different experience.

                         CVC EVALUATION SURVEY

    I think one of the issues to deal with that might be that 
we might want to put together, to give everyone who goes on the 
tour, an evaluation sheet, ``What did you think of the Capitol 
Visitor Center?'' and then give an evaluation on the tour guide 
so that all of the tour guides know that they are going to be 
held accountable.
    And I think this is really an issue that, of all the good 
that we do--it is the same thing as elected officials. If we 
have a staffer who is giving----
    Ms. Wasserman Schultz. Will the gentleman yield?
    Mr. Ruppersberger. I will yield, especially with a pink 
cast. I like that.
    Ms. Wasserman Schultz. We would be happy to put language in 
the report directing the CVC to make that change.
    Mr. Ruppersberger. Okay. Well, I think that is positive. 
And it has to be managed on a regular basis. And you could--
even to the point that you might want to--maybe some people 
might be better with senior, some people might be better with 
children. I don't know if you just stand in line and pick up 
the next person that comes. I am not sure what the system is.
    But I think this is an issue that we need to discuss with 
this committee and that you need to report back to us on a 
regular basis to make sure that--but it is a management issue 
in the end. I don't know who we are hiring, what the standards 
are, whatever.

                       MEMBER VOTING NOTIFICATION

    The other issue I want to talk about and maybe comment on 
before my time runs out is the issue of cell phones and, 
really, even the ability for Members to be able to--when there 
is a vote called, if your cell phone doesn't work and the bells 
aren't going off--it is the same issue I have talked to Dan 
Beard about in the Capitol's lunchroom or whatever, where you 
can't get a phone call and yet you don't know that there is a 
vote there.
    So I am not sure from an infrastructure point of view, but 
it is something, I think, when Members are over there or they 
are with some visitors that they are taking from their district 
or whatever. I don't know what that system is now.
    Okay, could you respond to the first--this tour guide thing 
is a major issue.
    Ms. Rouse. The tour guide issue is the major issue for me. 
If someone is having a bad experience, that is not good. So I 
do think we will look into that and address that. It is an 
ongoing concern of ours, and we do a lot of training. This 
gives us another point to train on. Condescension is not very 
good.
    As for evaluation, we are in the process of developing a 
mechanism to do full-scale evaluation of our visitors and our 
users. And hopefully we will have that launch, probably not 
until the fall. So I am pleased that we will be able to have 
solid information for this committee in probably about 9 
months.

                      COMPLAINTS/HIRING STANDARDS

    Mr. Ruppersberger. Who is doing the hiring? Do you have 
certain standards?
    Ms. Rouse. Yes, we actually have----
    Mr. Ruppersberger. Personality standards? It seems to me, 
people skills are very relevant here.
    Ms. Rouse. Yes, we do have standards, and we do evaluate 
people on the comments that we get from people whose services 
they are using. So we will go back and address that.
    Mr. Ruppersberger. And, again, one or two bad individuals 
can hurt everybody, too. So I am not saying--but when I hear 
two people and then I get another complaint, you have to raise 
it.
    Ms. Rouse. Okay. Thank you.
    Mr. Ruppersberger. Now, what about the issue of the cell 
phones?
    Ms. Wasserman Schultz. Yes, Mr. Ungar.
    Mr. Ungar. Yes, sir, on cell phone coverage in the CVC, as 
part of our project we have covered fully the CVC public areas 
in the Senate side. As of a few months ago, there was a problem 
on the House side. It was a funding issue with the CAO's 
office.

                  BELL SYSTEM AND CELL PHONE COVERAGE

    As of at least a few months ago, it had not installed a 
system in the House portion of the CVC for cell phone coverage. 
The coverage that was being received at that point in time was 
spillover from the rest of the CVC. But I don't know the 
current status of that within the House.
    Mr. Ruppersberger. And how about the bell system for votes 
when they go off?
    Mr. Ungar. I know in certain----
    Mr. Ruppersberger. On the clocks, on the clocks.
    Mr. Ungar. Yes. That I am not aware of.
    Mr. Ruppersberger. That is something you should look at.
    Ms. Wasserman Schultz. Yeah, just to correct Mr. Ungar, it 
is actually not a funding issue. The CAO is in the process of 
working on it. For some reason, in the previous speaker's 
administration, they weren't expecting to use the House 
expansion space as soon as we ended up using it. And there is a 
significant demand and a lot of Members use it now, and it 
wasn't designed with cell phone coverage.
    But we are in the process of doing that right now. The 
concern and what is taking a little bit longer is that our 
expansion space happens to be next to the SCIF. And so they are 
dealing with----
    Mr. Ruppersberger. I am on the Intelligence Committee, and 
we have an issue there too. But we have to have the NSA and CIA 
look at that to make sure that it doesn't penetrate the SCIF.
    Ms. Wasserman Schultz. Exactly. And that is what is being 
reviewed and evaluated right now. But it is a problem that is 
being addressed.
    Thank you, Mr. Ruppersberger. And, particularly, thank you, 
being a parent of 10-year-old twins.
    Mr. Ruppersberger. No, I am not a parent. I have a sister--
--

                      COMMUNICATING WITH CHILDREN

    Ms. Wasserman Schultz. No, I know. But as a parent of 10-
year-old twins, it is actually very important to make sure that 
the guides are sensitive to children.
    Just by way of example, not standing at full height and 
talking down to a child who is much lower to the ground, you 
know, just training them on little things that really help in 
interaction with children, getting down to their level, 
listening to their questions, answering their questions in a 
simple way but not a patronizing way.
    Some people are good at dealing with kids, and other people 
are not. And if your children don't have a good experience on 
the tour, it can really impact your trip for the rest of the 
day.

                                 PAVERS

    So, anyway, just some fellow parent advice there.
    I want to shift to the pavers, which is not you, Ms. Rouse. 
Obviously, we can all see the replacement of the pavers going 
on out on the plaza. There are some that are heavily damaged, 
some that are not damaged as badly.
    Where are we in terms of the paver replacement process? And 
how are we dealing with the difference between the normal wear 
and tear and the design flaw that clearly existed, because we 
always had an expectation that these would be driven upon?
    Mr. Ungar. Right. Madam Chair, we are making very good 
progress. We are about 2 to 3 weeks away from finishing the 
paver replacement effort on the House side. We have started to 
work on the Senate side, and we are a bit ahead of schedule, at 
this point. And we hope to finish around mid-September with the 
complete project.
    In terms of maintenance, once we finish the new pavers, 
they will not require a great deal of maintenance, but they 
will have to be inspected periodically for oil stains and 
cleaned, and then the joints will have to be inspected.
    But we don't anticipate anywhere near the type of chipping 
that we have experienced with the old system, at least in those 
portions of the plaza that we are replacing.
    Ms. Wasserman Schultz. So the chipping and--there are some 
chipped and discolored ones. Are those part of the replacement 
process?
    Mr. Ungar. Yes. The bulk of those are in the area that are 
going to be replaced. There are a few that are chipped and have 
some stains in the areas that we are not replacing, but we are 
going to replace those that are chipped or stained 
individually.
    Ms. Wasserman Schultz. Just another suggestion: If, as we 
go forward, we can make sure that the gaps that may develop in 
between pavers are monitored. Women who walk across them in 
heels may have trouble. I can tell you, on many an occasion on, 
not these pavers, but other pavers where I have had a heel get 
yanked off of it, and it is dangerous. You can really hurt 
yourself.
    Mr. Ungar. Right.
    Mr. Dorn, I am not sure how much you can answer this at a 
public hearing. But do we have an issue with the company that 
originally designed the plaza pavers and, laid down all those 
damaged ones? And is there a lawsuit, or how are we resolving 
the issue of paying for the replacement?
    Mr. Dorn. Right. There is no ongoing litigation at the 
moment. We are still not really in a good place to talk about 
it. But I do know that AOC has been having some correspondence 
with the designer.
    Ms. Wasserman Schultz. Okay.
    Mr. Dorn. It is at that stage, and maybe Stephen----
    Ms. Wasserman Schultz. Okay. Like I said, in an appropriate 
setting, maybe you could give us the information about where we 
are on that.
    Mr. Dorn. I would be happy to.

                       CANNON TUNNEL & LONG LINES

    Ms. Wasserman Schultz. If this is not the appropriate 
setting, then the appropriate setting would be fine.
    Chief Morse, I had an opportunity to speak in my office to 
Assistant Chief Nichols last month about the length of the 
lines in the Cannon tunnel during the part of the peak staff-
led tour season. It was really getting back to being an hour 
and a half, 2 hours. And we would walk by them every day on our 
way to vote, and you had a 6-minute wait time outside the 
entrance to the CVC and a 2-hour wait time for staff-led tours. 
And, you know, we were getting a lot of Member complaints about 
the length of time.
    Chief Nichols was extremely helpful, and we were able to, I 
think, achieve a balance between how many magnetometers and 
staff at the entrance of the CVC versus making sure we can open 
two magnetometers at the Cannon tunnel. So I appreciate the 
adjustment being made to that. Six minutes is a great time, but 
it doesn't have to be 6 minutes, it can be 10 minutes or 15 
minutes, and we can reduce the time for the staff-led tours 
considerably.
    So, do you have a plan going forward to make sure that, 
during peak times, we can keep the two magnetometers open?
    Chief Morse. Immediately following that meeting, we 
instituted that plan. And we continue to monitor the lines and 
make sure that we have supervisors on scene, the appropriate 
number of magnetometers open, and the most expeditious, you 
know, professional screening that we can do at that location.

                          LONG LINE RESOLUTION

    Ms. Wasserman Schultz. And just as an extension of that, 
because we have also had really long lines outside the House 
office buildings, what steps are being taken to address those 
lines?
    Chief Morse. What we have done is assembled response teams 
that will go--because these lines come and go, and we can't 
guess when that is going to happen. So what we do is we simply 
monitor the input at the doors, and whenever we have long lines 
at locations, we send additional officers to that location to 
help alleviate the lines. And we just do that on a rotating 
fashion.
    Ms. Wasserman Schultz. It seems like, as the tourist season 
has wound down, the lines seem to have been getting a little 
bit shorter recently.
    Chief Morse. They have. And we have also noticed, as you 
said, that the staff-led tours have increased, and people are 
still coming from different modes of transportation and 
visiting their Members before they go to the CVC or the 
Capitol. And, we are screening significant numbers of people 
this year into our buildings.
    Ms. Wasserman Schultz. Thank you.
    Mr. Aderholt. My time has expired.
    Mr. Aderholt. Yeah, just let me follow up on the--Chief 
Morse, let me just mention this to you, and Mr. Ruppersberger 
reminded me of this.

                     U.S. CAPITOL AND ITS SYMBOLISM

    We want, of course, all of our constituents to have a very 
positive experience when they come to the Capitol. And, of 
course, I tell people this is one of the--probably if they are 
only going to see one building in Washington, D.C., maybe I am 
partial, but I tell them that they ought to see the Capitol of 
the United States, just because of what it stands for and the 
symbolism. And, you know, when you see that Capitol dome, you 
can recognize it around the world, and people do recognize it 
around the world.
    But one of the things that is important, whether it be a 
tour guide or whether it be a staffer or whether it be someone 
that is working with the Capitol Police, I think it is 
important that, you know, they show the respect for the 
visitors that are in the Capitol. And sometimes I will walk by 
some of the Capitol Police in parts of the Capitol, not just 
the Visitor Center, and sometimes it seems like it is not 
really their top priority to--and I understand safety is their 
top priority, but sometimes the way that they communicate to 
some of the visitors and some of the staff is sometimes pretty 
condescending.

                           SECURITY CONCERNS

    And I just--again, I know that safety is the first and 
foremost for their job, but at the same time I do think it is 
important that, whether you have a 5-year-old or a 10-year-old, 
they have a positive experience at the Nation's Capitol.
    And I don't know if that is something that you all address 
on a consistent basis or whether that really ever comes up. But 
I do think there is--I would appreciate if you would look into 
that and just let your officers know that these people are here 
maybe for the only time they will be visiting the Capitol in 
their entire life, and it needs to be as positive an experience 
as possible.
    And, you know, I understand that they have never been in 
some of these buildings before, so they are not sure exactly 
how they are supposed to put their purse on the conveyor belt 
exactly the way that they need to be or to have their purse 
open when they go through a certain magnetometer or something 
like that.
    So I just bring that up. It is not anything that I had 
actually planned to say. It is just, you know, Mr. 
Ruppersberger was talking about that issue, and I do think it 
is vitally important that the public sees a very positive face 
for all of us that work here, whether it be a Member of 
Congress, whether it be the Capitol Police, staff, someone in 
touring as far as the red coats, or whatever the case may be.
    So I just mention that to you. I don't really necessarily 
want to--you don't have to respond to it necessarily. I just 
want to put it on your radar screen and, you know, would 
appreciate your just being constantly aware of that issue.
    Chief Morse. Actually, if you don't mind, I would like to 
respond.
    Mr. Aderholt. I would welcome that.

                      U.S. CAPITOL POLICE OFFICERS

    Chief Morse. I can concur. I have worked for the U.S. 
Capitol Police for 25 years, and one of the things that I love 
the most is the interaction with the people that work here and 
come here. That is one of the reasons that I go out, most 
recently the Memorial Day concert, the 4th of July concert, and 
some of these other lines that we have been seeing at the CVC 
and the buildings, to really emulate one of our core values of 
our police department, which is courteous and, you know, to 
lead by example.
    And we, as Capitol Police officers, appreciate the fact 
that people come here from around the world to visit. And it is 
my intention that they all, when they interact with Capitol 
Police officers, they see a professional police officer who is 
unflinching, courteous, sincere, and principled. And those are 
our core values that stand for ``USCP.''
    Chief Morse. So we will go back and make sure that we 
reiterate that and hopefully correct any issues with any 
individuals that don't follow those core values in our agency.

                    U.S. CAPITOL POLICE APPRECIATION

    Mr. Aderholt. Let me just follow up on that and let me just 
say that I think--you know, the Capitol Police, let me just 
say, you all do a great job and you have some of the finest 
officers I think anywhere in the country serving as the Capitol 
Police and they do a great job. I mean as with any profession 
or any job, you even have some Members of Congress that 
actually would give a bad impression that make us look bad as 
well. So certainly no occupation or profession is immune from 
that. But like I say, it is something that I think it is 
important that people who come here to the Capitol and 
sometimes the officer maybe is just having a bad day, but I 
think it is important that they do everything they can to show 
the courtesy, at the same time making sure that safety is the 
number one concern.
    Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Aderholt.
    Mr. Honda.
    Mr. Honda. I am fine. Thank you.
    Ms. Wasserman Schultz. Mr. Ruppersberger.
    Mr. Ruppersberger. I am fine.
    Ms. Wasserman Schultz. I just have a couple more questions.

                       GALLERY VISITATION PROCESS

    Chief Morse, it was brought to my attention recently that a 
constituent who had people who wanted to go through the 
gallery, you know go and sit in the gallery for a little while, 
they had a whole bunch of stuff with them, you know just some 
bags and things like that. So they came upstairs. They were 
going to go do the gallery first and then go back through the 
CVC later. But we were in the middle of a series of, I think, 
six votes, and seeing that process versus just watching the 
debate is something that they wanted to see and they were urged 
to go see it. The officer that they dealt with told them, no, 
you can't--even though there are cubbies right there that they 
can put their stuff up, they were told that they had to go back 
to the CVC and register, and the term ``register'' was used, 
and leave their belongings there. And then only then could they 
come back up and sit in the gallery.
    Well, they went down and did that process. And they had one 
of my staff with them. So there was a little bit back and 
forth, cordial back and forth, but they were still told they 
had to go back to the CVC. When they did get back up to the 
gallery, the gallery was not nearly completely full and there 
was only a handful of people in line, yet still they were 
restricted to being in the gallery for 15 minutes and then 
shuttled out and told to leave.

                         VISITOR ACCOMMODATIONS

    What is the process for gallery visitation? Is it made 
clear both to staff on staff-led tours and also to the redcoats 
that--I mean isn't there any flexibility? When the gallery is 
empty or not that full and the line is not long, do we have to 
rigidly adhere to the 15-minute rule?
    Chief Morse. Well, I think you just hit it, that there was 
no flexibility there as you described it. There is a process 
for the gallery, there are gallery tickets, there is a line 
from the CVC and from the Capitol building itself that you can 
get there. But once a staff person had brought someone to the 
gallery, I don't understand why it couldn't have been 
facilitated.
    Ms. Wasserman Schultz. They just wanted to put their stuff 
in the cubbies and go in the gallery for a little while, then 
come back out.
    Chief Morse. Yes. I am sure that it happens often where the 
process is not followed for whatever reason. And perhaps that 
had some impact on the decision the officer made. But in my 
view, you know, you were there, you were staff, you had a 
group, we should have been able to be flexible enough to 
facilitate that.
    Ms. Wasserman Schultz. Can we just make sure that it is 
communicated to the officers that staff that area that--you 
know, obviously we have rules, and when there is long lines you 
want to get people through there, and I realize that the 
Sergeant At Arms runs that gallery visitation process, not the 
CVC, but the officers are there that staff it.
    Chief Morse. I think we should be able to facilitate those 
things. If it is problematic or something----
    Ms. Wasserman Schultz. Do they have to bring their stuff 
back to the CVC? Do they have to keep their stuff in the CVC?
    Chief Morse. No. The things are taken there by the 
doorkeepers that are not allowed into the galleries. And there 
is space there; carts, cubby holes, cabinets, et cetera, that 
as people come up the staircases that is the first thing they 
do. But you know we can facilitate that. If there is some 
problem, then you know we will communicate to the staff.
    Chief Morse [continuing]. And kind of go back through. But 
I think in that particular instance we could have probably been 
a little more flexible and facilitated it.
    Ms. Wasserman Schultz. My last question is actually 
unrelated to the CVC. And as you might imagine having a broken 
leg, Mr. Ayers, I am a little more sensitive now than I 
normally would be to accessibility issues in the Capitol.
    Mr. Ruppersberger. Would you yield? Just don't slide into 
second base.

                     CAPITOL COMPLEX ACCESSIBILITY

    Ms. Wasserman Schultz. Right. I guess if I didn't slide 
into second base I wouldn't be as aware, but it has actually 
been quite helpful given that we fund the expanded 
accessibility efforts that you have been pursuing out of this 
subcommittee.
    There are quite a lot of gaps in our accessibility in the 
whole Capitol complex, but one of those that is pretty glaring 
is in the Cannon House Office Building. The interior doors that 
are enclosed with the elevator on each, you know on all the 
corners of all the floors--do you know what I am talking about? 
There is the elevator bank and then the doors that you have to 
click open to get out into the hallway.
    Mr. Ayers. Yes, I do.
    Ms. Wasserman Schultz. None of those are wheelchair or 
disability accessible. There is no buttons to open them. I have 
either been going around on crutches or on the scooter for the 
last 10 days and a disabled individual absolutely could not be 
by themselves and get through those doors coming off the 
elevator. Do you have a timetable for when those doors in 
Cannon, all throughout Cannon, are--I mean I am going to be 
done with this in 12 weeks, but you know it is a real issue 
that I was not aware of. It never even occurred to me until I 
was dealing with it myself.
    Mr. Ayers. No, Madam Chair, we don't have a timetable. I 
wasn't aware of that issue, but we will look at that right away 
and get that corrected.
    Ms. Wasserman Schultz. A button needs to be put on all of 
those so that someone in a wheelchair can get it open 
themselves if they are alone, which often people aren't. There 
are nice people that are willing to open the doors, but I have 
also found that there are people who are not so nice who just 
walk right by you and let the door go in your face. So anyway, 
if we could look into that, that would be great.
    Mr. Ayers. We could do that.
    Ms. Wasserman Schultz. The other place is that on the door 
on the south, on the south front of the Capitol where the ramp 
is.
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. You come in and the main doors have 
a button, but then there is a door to the left that is the door 
that you are supposed to go through if you are a Member or if--
that door is--no button on that door either and no button 
coming out, and that is the way you are supposed to come out. 
So it is--and that door is heavy--so it is really an issue.
    And with that if no other members----
    Mr. Ruppersberger. I have one other thing.
    Ms. Wasserman Schultz. Please, yes.
    Mr. Ruppersberger. We talked about the cell phone coverage. 
The tunnel that goes where the subway is, a lot of times 
Members are rushing to vote and we still lose some calls there.
    Ms. Wasserman Schultz. The CAO, Mr. Ruppersberger.
    Mr. Ruppersberger. That is all the way through?
    Ms. Wasserman Schultz. Yeah.
    Mr. Ruppersberger. And the lunchroom the same thing?
    Ms. Wasserman Schultz. Any of those issues related to cell 
phone access is the CAO.
    Mr. Ruppersberger. Dan Beard.
    Ms. Wasserman Schultz. Yes, Dan Beard, exactly.
    So I appreciate it. We are all very cognizant of how there 
are lots of places, too many places in the Capitol complex that 
are inaccessible to the disabled. But you know I am more 
clearly aware of it now, and to the degree that we can step up 
our efforts and to the degree you need help from the 
subcommittee, please let me know.
    Mr. Ayers. Thank you.

                     Chair Closing Remarks/Homework

    Ms. Wasserman Schultz. We wouldn't be the Legislative 
Branch Appropriations Subcommittee without some homework. So 
now that the CVC has been opened for 8 months it is really a 
good time for us to take stock and assess how well systems 
developed before we opened are working now that the center is 
operating in the real world. And as we have talked about at 
this hearing, whenever you open up a facility of this magnitude 
some things are going to go well, other things not so well and 
will need adjustment. The key is being able to identify where 
problems exist and adapt accordingly.
    So based on the discussions today, I think one of the main 
areas worth taking a second look at is the current 
transportation plan. We had said we were going to revisit it at 
this point in a year after we saw how it was going with the six 
shuttles. It is clearly a problem that I think needs 
evaluation. It sounds like the overall existing system is 
working well, but there are definitely some adjustments that 
need to be looked at in order for us to get particularly the 
senior citizens and the frail elderly up to the CVC. And so in 
line with that I would like the CVC staff, in coordination with 
the Capitol Police, to review the existing plan for getting 
visitors from their tour buses to the CVC and assess how well 
it is working and whether additional adjustments might be worth 
considering to better facilitate the movement of visitors, 
particularly senior citizens, from their tour buses to the CVC 
main entrance. And please explain the pros and cons of each 
potential adjustment, identify whether it is viable, and 
provide a general estimate of its cost to implement both 
initially and then on an annual basis as well. And the report 
will be due back a month from now on August 24th.
    With that, thank you all for your participation. The 
subcommittee stands adjourned.
    [Clerk's note: The Executive Summary of the CVC 
Transformation Review follows:]

[GRAPHIC] [TIFF OMITTED] T2476A.024

[GRAPHIC] [TIFF OMITTED] T2476A.025

[GRAPHIC] [TIFF OMITTED] T2476A.026

[GRAPHIC] [TIFF OMITTED] T2476A.027


</pre></body></html>
